GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




                     AUDIT OF GSA’S
                PURCHASE CARD PROGRAM
             REPORT NUMBER: A080090/B/F/F09006
                       MAY 11, 2009



 

 

 

 

 

 

 
                                AUDIT OF GSA’S
                           PURCHASE CARD PROGRAM
                        REPORT NUMBER: A080090/B/F/F09006

                               TABLE OF CONTENTS

                                                                            Page
EXECUTIVE SUMMARY                                                             i

INTRODUCTION                                                                 1

     Background                                                              1

     Objective, Scope and Methodology                                        2

RESULTS OF AUDIT                                                             3

     Results in Brief                                                        3

     Finding 1: Inadequate Compliance with Policies Over the Purchase        3
                Card Application, Maintenance and Account Closure Process

     Finding 2: Reasonableness of Cardholder to Approving                    4
                Official Ratios

     Finding 3: Unallowable Use of the GSA Purchase Card for                 4
                Fleet Related Transactions

     Finding 4: Notification of Fraudulent Charges to the Office of          5
                Inspector General

CONCLUSION                                                                   5

RECOMMENDATIONS                                                              6

MANAGEMENT’S RESPONSE                                                        6

MANAGEMENT CONTROLS                                                          7

APPENDIX A: MANAGEMENT’S RESPONSE TO DRAFT REPORT                            A-1

APPENDIX B: REPORT DISTRIBUTION                                              B-1
                                                         AUDIT OF GSA’S
                                                    PURCHASE CARD PROGRAM
                                                 REPORT NUMBER: A080090/B/F/F09006

                                                               EXECUTIVE SUMMARY
Purpose

The objectives of the audit were to determine: (1) if satisfactory management controls
exist for the ordering and accepting of goods and services by credit cardholders, and (2)
if supervisors of credit cardholders are doing enough to protect the integrity of the
government purchase function. The scope of our audit work included all General
Services Administration (GSA) regions.

Background

The GSA SmartPay® program provides travel, purchase, fleet, and integrated charge
cards to U.S. government agencies through master contracts with major national banks.
The SmartPay® program allows participating agencies to streamline their procurement
and payment processes, and provides significant administrative savings through the use
of charge cards. In November 1998, GSA awarded Citibank its purchase card contract,
and GSA cardholders began using the bank’s purchase card to procure micro-
purchases for needed supplies and services. The Office of the Chief Financial Officer
(OCFO) is responsible for administering the program for the Agency.

GSA’s policy regarding use of the purchase card is contained in CFO Order 4200.1,
Guidance on Use of the Credit Card for Purchases. This policy allows authorized
employees to use the purchase card whenever possible to make micro-purchases (i.e.,
small procurements up to $3,000 for supplies and services1 or $2,000 for building
services and alterations) on behalf of the Agency. Contracting officers are also
encouraged to use the card as a payment vehicle when placing orders valued over
$2,500 against established contracts that authorize use of the card, and for other
contracts when contractors agree to accept payment by credit card.

Results in Brief

Our audit found instances where administrative duties to be followed by cardholders,
Approving Officials (AOs) and program coordinators outlined in CFO Order 4200.1,
were not adhered to in the procurement and acquisition of supplies and services.
Specifically, our audit noted the following:

       •      Inadequate controls over the purchase card application, maintenance, and
              account closure process;

                                                            
1
 Prior to the Office of the Chief Financial Officer’s Memo dated 2/13/2007, the amount of the micro-
purchase threshold for procurements of supplies and services was $2,500.


                                                                       i                                
    •   An absence of policy to ensure the reasonableness of the span of control of AOs
        and cardholders;
    •   Use of the GSA purchase card for fleet related transactions; and
    •   Instances in which the Office of Inspector General (OIG) was not notified of
        possible card misuse and/or abuse, as required.

Recommendations

We recommend that the OCFO ensures that current purchase card polices are followed
and consistently applied Agency-wide. Additionally, we recommend that an audit trail
be maintained by cardholders, AOs, and purchase card coordinators for all aspects of
the account application, maintenance, and closure process. We further recommend
that the OCFO revise its current guidance to include the following: an established
timeframe for the cancellation of cardholder accounts upon an employee’s separation
from the agency; and guidance on the span of control delegated to AOs (i.e., cardholder
to AO ratios).




                                            ii                                             
                                                            AUDIT OF GSA’S
                                                        PURCHASE CARD PROGRAM
                                                     REPORT NUMBER: A080090/B/F/F09006

                                                               INTRODUCTION

Background

The General Services Administration’s (GSA) SmartPay® program provides travel,
purchase, fleet, and integrated charge cards to U.S. government agencies through
master contracts with major national banks. The SmartPay® program allows
participating agencies to streamline their procurement and payment processes, and
provides significant administrative savings through the use of charge cards. In
November 1998, GSA awarded Citibank its purchase card contract, and GSA
cardholders began using the bank’s purchase card to procure micro-purchases for
needed supplies and services.

The Office of the Chief Financial Officer (OCFO) is responsible for administering the
program for the Agency. Specifically, the Agency-wide purchase card program
coordinator is the liaison between GSA and Citibank, who oversees the purchase card
program; establishes policy and administrative procedures for use of the purchase card
in GSA; monitors resolution of disputed purchases, credits, or billing errors; and
provides administrative support and training to regional program coordinators.
Additionally, the Agency-wide purchase card program coordinator approves changes to
authorization limits and authorized merchant codes; provides training for Central Office
cardholders and Approving Officials (AOs); coordinates the applications for setup,
maintenance and cancellation of purchase card accounts for Central Office
organizations; and conducts reviews of purchase card use. Regional purchase card
program coordinators’ responsibilities are similar to that of the Agency-wide purchase
card program coordinator except for the fact that they are only responsible for their
respective region.

GSA’s policy regarding use of the purchase card is contained in CFO Order 4200.1,
Guidance on Use of the Credit Card for Purchases. This policy allows authorized
employees to use the purchase card whenever possible to make micro-purchases (i.e.,
small procurements up to $3,000 for supplies and services2 or $2,000 for building
services and alterations) on behalf of the Agency. Contracting officers are also
encouraged to use the card as a payment vehicle when placing orders valued over
$2,500 against established contracts that authorize use of the card, and for other
contracts when contractors agree to accept payment by credit card. During fiscal year
(FY) 2007, GSA purchase cardholders made approximately 116,000 purchase card
charges totaling $81.7 million under the SmartPay® program.
                                                            
2
 Prior to the Office of the Chief Financial Officer’s Memo dated 2/13/2007, the amount of the micro-
purchase threshold for procurements of supplies and services was $2,500.


                                                                    1                                   



                                                                                                        
While our audit period covered FY 2007 purchase card transactions, which were
regulated under the initial GSA SmartPay® contract, effective November 30, 2008, GSA
SmartPay 2® (SP2) was implemented to provide agencies with needed improvements
in key areas such as enhanced customer service; systems and data security; enhanced
data capture; and tax reclamation. Banking institutions such as Citibank, JP Morgan
Chase, and U.S. Bank have been contracted to provide new and improved purchase,
travel, fleet and integrated charge card products to over 350 Federal agencies and
organizations participating in the SP2 program. The new SmartPay® contract has a
four-year base period, with one four-year option period, and one three-year option
period.

Objectives, Scope, and Methodology

The objectives of the audit were to determine: (1) if satisfactory management controls
exist for the ordering and accepting of goods and services by credit cardholders and (2)
if supervisors of credit cardholders are doing enough to protect the integrity of the
government purchase function. The scope of our audit work included all GSA regions.

To accomplish our objectives, we obtained the universe of purchase card transactions
processed by GSA cardholders during fiscal year 2007 (October 1, 2006 through
September 30, 2007) from Citibank. We then utilized the Office of Inspector General
(OIG) Statisticians to generate the following samples:

                                                                Confidence     Margin of
          Audit Procedure                  Sample Size
                                                                  Level         Error
Test of Active Cardholders                53 Cardholders           90%             8
Test of Closed Accounts                   48 Cardholders           90%             8
Test of Approving Officials            48 Approving Officials      90%             8
Test of Purchase Card Transactions       138 Transactions          90%             5
Test of Questionable Transactions         54 Transactions         Judgmentally Selected


We obtained and reviewed supporting documentation relating to the test items from
program coordinators, cardholders, and AOs to determine whether purchases were
appropriate, legitimate, and in compliance with stated purchase card guidance as well
as CFO Order 4200.1. In addition, we inquired with the Agency Purchase Card
Coordinator and OIG personnel regarding actions taken upon being made aware of
unauthorized or fraudulent transactions.

The audit field work, including site visits, Regional correspondence, research, analysis,
and summarization was conducted during the period of December 2007 to November
2008 and was conducted in accordance with Generally Accepted Government Auditing


                                            2                                                



                                                                                             
Standards (GAGAS). Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

                                 RESULTS OF AUDIT

Results in Brief

Our audit found instances where administrative duties to be followed by cardholders,
AOs, and program coordinators outlined in CFO Order 4200.1, were not adhered to in
the procurement and acquisition of supplies and services.  

Audit Findings

Finding 1: Inadequate Compliance with Policies Over the Purchase Card Application,
Maintenance and Account Closure Process

Our FY 2007 audit of the GSA Purchase Card Program noted current practices
employed by program coordinators for the application, maintenance, and closure of
cardholder accounts are not in compliance with the established guidelines provided in
CFO Order 4200.1. Details of our findings related to the account application,
maintenance, and closure process are provided below.

                       Account Application and Maintenance Process
We noted that 13 of 53 purchase cardholders and/or designated AOs selected for
testing did not have a completed GSA Form 3661 – Purchase Card Application and
Maintenance – or lacked documentation verifying that the required purchase card
training (initial and/or refresher) was completed. Per CFO Order 4200.1, cardholders
must submit a completed GSA Form 3661 to the appropriate regional purchase card
program coordinator with sections I-III completed by the cardholder and section IV
signed by the appropriate Division Director/equivalent or higher level official and funds
manager.

                                 Account Closure Process
We noted that 31 of 48 account closures tested did not submit a GSA Form 3661 to the
appropriate Regional coordinator to cancel the account as outlined in CFO Order
4200.1; moreover, three of the accounts tested were closed between 39 and 58 days
after employee separation. One of the three accounts had charges totaling
approximately $3,800 that were made subsequent to the employee leaving GSA. Upon
further investigation, we were able to determine that the post-separation charges were
either the result of timing delays or pre-established auto-billings set up on the


                                            3                                                



                                                                                             
employee’s account. We obtained supporting documentation and/or reasonable
explanations for the transactions and concluded that the employees’ purchase cards
were not used by another GSA employee.

CFO Order 4200.1 requires that cardholders submit a GSA Form 3661 to the
appropriate regional coordinator to request cancellation or closure. As a result of
inconsistent enforcement and adherence of current purchase card application and
maintenance policies, as well as insufficient guidance over the account closure process
set forth in, CFO Order 4200.1, a risk exists for cardholder account abuse or fraud.

Finding 2: Reasonableness of Cardholder to Approving Official Ratios

During our FY 2007 audit of the GSA Purchase Card Program, we noted the Agency
does not have a policy to ensure that the span of control (i.e., review responsibilities
and ratio of cardholders to AOs) is reasonable. While the Agency reported to OMB a
cardholder to AO ratio of 2.9:1 for the program (in FY 2007), our review found several
instances where that ratio was exceeded, noting an inequitable delegation of review
responsibilities for AOs across the Agency.

Although CFO Order 4200.1 does not provide specific guidance for cardholder to AO
ratios, OMB Circular A-123, Appendix B requires that the Agency maintain for their own
use a ratio of AOs to purchase cardholders (span of control) and an average number of
monthly purchase card transactions approved per AO. Over-extended AOs may not
consistently perform their review responsibilities, which may result in potential
cardholder abuse or fraud.

Finding 3: Unallowable Use of the GSA Purchase Card for Fleet Related Transactions

During our test of FY 2007 purchase card transactions, we noted four instances where
cardholders used their purchase card to make fleet related purchases. Specifically,
supporting documentation provided for the purchases showed that approximately
$3,000 was charged for oil and/or maintenance related services for fleet purposes.
Furthermore, two of the four transactions in question did not have evidence of any
written supervisory approval of the purchase.

According to CFO Order 4200.1, “purchases for GSA Fleet vehicles must be made
using the fleet services card (part of the SmartPay® program) in order that… expenses
are recorded to the proper vehicles. Any exceptions to use of the fleet services card for
GSA vehicles must be approved by the Director, Fleet Management Division (FFF).”

Improper use of the GSA purchase card for prohibited purchases weakens the purpose
of the Agency’s policy and other governing regulations.




                                            4                                                



                                                                                             
Finding 4: Notification of Fraudulent Charges to the Office of Inspector General (OIG)

Our sample for testing included three transactions, totaling approximately $8,790, which
were identified by the cardholders and reported to Citibank and the Agency as
fraudulent in nature. Specifically, the three transactions were coded in the Citibank
Reporting System with an account status code of "stolen / unauthorized". Upon further
investigation, we learned that the charges were reported by the cardholders to Citibank
as a result of their card(s) being stolen, lost, and/or misused. The transactions varied in
disposition, from casino hotel charges, to airplane tickets, and food. We determined that
these fraudulent transactions were resolved, and related expenditures were recouped
by the Agency. However, we found no evidence that these three transactions were
properly communicated to the OIG, as required per CFO Order 4200.1.

Per CFO Order 4200.1, "GSA would be liable for any use of the card by authorized
cardholders. Therefore, the approving official must notify the Office of the Inspector
General and the purchase card program coordinator immediately upon becoming aware
of the occurrence of any unauthorized purchases, negligence, or misuse of the
purchase card."

As a result of inconsistent enforcement and lack of adherence to the Agency’s purchase
card policies – particularly pertaining to unauthorized purchases – negligence or misuse
of the purchase card, as well as controls designed for the safeguarding and monitoring
of the purchase card program are weakened.

                                    CONCLUSION

Our FY 2007 audit of the GSA Purchase Card Program noted instances where
administrative duties to be followed by cardholders, AOs, and program coordinators
were not always adhered to, as outlined in CFO Order 4200.1. Specifically, we noted
inadequate controls over the purchase card application, maintenance and account
closure process; an absence of policy regarding the span of control of AOs; instances of
insufficient documentation of supervisory approval of purchase card transactions; and
use of the GSA purchase card for fleet related transactions, without documented
exception. Also, there was no evidence of whether the OIG was notified of possible
card misuse and/or abuse, as required per purchase card guidance.

In brief, we recommend that the OCFO ensures that current purchase card policies are
followed and consistently applied Agency-wide. We also recommend that current
guidance be revised to emphasize the importance of maintaining a complete audit trail;
enforcing the timeliness of account closures; and performing thorough supervisory
reviews and oversight for all purchase card purchases. By addressing these areas of
concern, management can further ensure a more efficient and effective purchase card
program. This is particularly important as the Agency could potentially experience
increased purchase card activity during the implementation of the American Recovery


                                            5                                                  



                                                                                               
and Reinvestment Act of 2009; therefore, management should be cognizant and
proactive in mitigating potential waste, fraud, and abuse of purchase card transactions
relating to the economic stimulus package.


                               RECOMMENDATIONS

We recommend that the Office of the Chief Financial Officer take steps to ensure a
more efficient and effective purchase card program by:

   1. Ensuring that current purchase card policies are followed and consistently
      applied Agency-wide. Additionally, we recommend that an audit trail be
      maintained by cardholders, AOs and purchase card coordinators for all aspects
      of the account application, maintenance, and closure processes. We further
      recommend that the OCFO revise its guidance on the account closure process to
      establish a timeframe for the cancellation of cardholder accounts.

   2. Revising CFO Order 4200.1 to include guidance on the span of control and
      oversight responsibilities delegated to AOs; specifically, as it pertains to the ratio
      of cardholders to AOs, as required by OMB Circular A-123, Appendix B.

   3. Ensuring that all guidelines are followed when using government funds to
      purchase goods and services, avoiding contradiction with the Agency’s guidance
      and other regulations. We further recommend that management ensures that in
      cases of exceptions to the policy, that the necessary approvals needed to
      authorize the purchases are documented and maintained in the cardholder
      account file (i.e., in an audit trail).

   4. Ensuring guidance pertaining to the proper notification of all parties, in
      accordance with CFO Order 4200.1, of any unauthorized purchases, negligence,
      or misuse of the purchase card is followed.


                          MANAGEMENT’S RESPONSE

Management’s response dated April 22, 2009 states they concur in part with the audit
findings and recommendations noted in the audit report. This final audit report reflects
changes that were made based on our review and analysis of additional audit
documentation and in response to management’s response of the draft audit report
issued February 25, 2009. A copy of management’s comments is provided in its
entirety in Appendix A.




                                             6                                                  



                                                                                                
                           MANAGEMENT CONTROLS
The objective of our audit was to determine if satisfactory management controls exist for
the procurement of goods and services by GSA purchase card holders during fiscal
year 2007; and if supervisors of cardholders were doing enough to protect the integrity
of the government procurement function. As part of the audit, we reviewed the controls
over the purchase card application and maintenance process, as well as the purchase
card procurement process. During our audit, we noted concerns with regard to the
completeness and the maintenance of an audit trail of the forms required to establish a
purchase card account. In addition, we identified instances where the GSA purchase
card was used for fleet related transactions. We have included recommendations in this
report to address these issues.


We would like to thank the Office of the Chief Financial Officer for the courtesies
extended to us during our review. If you have any questions regarding this report,
please do not hesitate to call Anthony Mitchell, Audit Manager, at 202-501-0006.




Anthony Mitchell
Audit Manager
Finance and Administrative Audit Office (JA-F)




                                            7                                                



                                                                                             
                                                                                                      

                                    APPENDIX A

                  AUDIT OF GSA’S PURCHASE CARD PROGRAM
                      REPORT NUMBER: A080090/B/F/F09006
                                              
  GSA OFFICE OF THE CHIEF FINANCIAL OFFICER’S RESPONSE TO THE DRAFT
       REPORT OF THE AUDIT OF GSA’S PURCHASE CARD PROGRAM




May 6, 2009

MEMORANDUM FOR JEFFREY C. WOMACK, CPA
               DEPUTY ASSISTANT INSPECTOR GENERAL
               FOR FINANCE AND ADMINISTRATIVE AUDITS

FROM:                  KATHLEEN M. TURCO
                       CHIEF FINANCIAL OFFICER (B)

SUBJECT:               Audit of GSA’s Purchase Card Program,
                       Report Number: A080090/B/F/


Thank you for providing me with the opportunity to review the Office of the Inspector
General (OIG) audit results on the U.S. General Services Administration (GSA)
purchase card program. The Office of the Chief Financial Officer (OCFO) is committed
to continually assess and improve the internal controls and reduce the risk of fraud,
waste, and abuse in the GSA charge card program. The attachment provides relevant
feedback to address the OIG findings.

As in the past, GSA management has been responsive in implementing appropriate
OIG recommendations. GSA recognizes that the OIG can provide invaluable
assistance in the management of its programs. I look forward to continuing to work with the
OIG to promote government efficiency and effectiveness.


Attachment




                                                              U.S. General Services Administration
                                                              1800 F Street, NW
                                          A-1                 Washington DC 20405-0002
                                                              www.gsa.gov
       GSA OFFICE OF THE CHIEF FINANCIAL OFFICER RESPONSE
            AUDIT OF GSA’S PURCHASE CARD PROGRAM
                  REPORT NUMBER: A080090/B/F/
                       DATED APRIL 22, 2009



The Office of the Chief Financial Officer (OCFO) would like to thank the Office of
the Inspector General (OIG) for reviewing GSA's purchase card program and
providing important feedback in order to improve the effectiveness of the
program. The OCFO is committed to prescribing policies and procedures to
maintain internal controls that reduce the risk of fraud, waste, and abuse in
GSA's government charge card program.

A. General

GSA has management controls, policies and procedures, and review processes
to ensure proper use of the purchase card and monitor its use. The following
reports, processes and reviews are in place to strengthen the oversight and
management of the program:

   •   In most cases, the approving officials (AOs) at GSA are front line
       managers supervising the cardholder. At month end, the Pegasys (GSA’s
       financial system of record) charge card module automatically emails AOs
       a consolidated report of all their cardholders’ charge card transactions. An
       AO can also elect to receive daily emails of new charge activity, as it
       occurs, and also assess a variety of reports on their cardholders at
       anytime from the Pegasys reports module. All AOs are required to review
       their monthly reports and take action on all unauthorized charges. In
       addition, the Office of the Chief Financial Officer monitors AO reviews to
       ensure completion.

   •   An Impending Suspensions Report contains the names of AOs who failed
       to review three or more monthly statements. Approving Officials have 10
       days to certify their review of transactions or the spending authority for
       their cardholders will be suspended.

   •   A Questionable Charges Report is sent to Heads of Services and Staff
       offices (HSSOs), Regional Administrators (RAs), and the OIG for review
       and action.

   •   The OCFO conducts a 100 percent monthly reconciliation of active
       purchase card accounts with the issuing bank, Citibank, to active
       personnel on the payroll records. A comparison is made between the two
       reports. The Citibank cardholders’ accounts are cancelled for any active
       cardholders who are not listed on the payroll records.


                                       A-2
   •   On all cards, GSA has set the expiration date at two years from issuance.
       This provides some measure of protection against accounts remaining
       open indefinitely.

   •   Random sampling and review of purchase card transactions and
       documentation is performed by the Kansas City Financial Services
       Division.

   •   A review of inactive cardholder accounts is performed semi-annually. The
       OCFO submits a report to regional coordinators who work with their
       approving officials to ascertain whether the accounts are still needed.
       Accounts that are no longer needed are cancelled with Citibank.

   •   During the annual internal control assessment under OMB Circular A-123,
       Appendix A, Internal Control over Financial Reporting, the OCFO performs
       tests of internal controls in the charge card program. Upon identification
       of internal control deficiencies, corrective action plans are developed for
       remediation.

B. Comments on Findings

Audit Finding 1: Inadequate Compliance with Policies Over the Purchase
Card Application, Maintenance and Account Closure Process

                 Account Application and Maintenance Process

OIG Finding: We noted that 13 of 53 purchase cardholders and/or designated
AOs selected for testing did not have a completed GSA Form 3661 – Purchase
Card Application and Maintenance – or lacked documentation verifying that the
required purchase card training (initial and/or refresher) was completed. Per CFO
Order 4200.1, cardholders must submit a completed GSA Form 3661 to the
appropriate regional purchase card program coordinator with sections I-III
completed by the cardholder and section IV signed by the appropriate Division
Director/equivalent or higher level official and funds manager.

OIG Recommendation: Ensure that current purchase card policies are followed
and consistently applied Agency-wide. Additionally, we recommend that an audit
trail be maintained by cardholders, AOs and purchase card coordinators for all
aspects of the account application, maintenance, and closure processes.

Management Response: As a practice, some coordinators verify the
completion of cardholder and AO training through GSA Online University (OLU)
and annotate this information on the GSA Form 3661. Therefore, the coordinator
may not have maintained a certificate of training for each cardholder and/or
approving official.


                                       A-3
There are two signatures on the GSA Form 3661 – Requesting Official and
Funds Manager. The Funds Manager signature denotes approval of the monthly
spending limits (30 Day Purchase Limit on the form) and is only needed for new
cardholder accounts and changes to the monthly spending limits.

Regarding the lack of AO training or supervisory approvals on the GSA Form
3661, we were unable to determine whether there was an issue with the AO
training or with supervisory approval. In the majority of cases, we are confident
that the supporting documentation existed and could have been provided if the
name of the AO and the specific issue was identified.

                            Account Closure Process

OIG Finding: We noted that 31 of 48 account closures tested did not submit a
GSA Form 3661 to the appropriate Regional coordinator to cancel the account as
outlined in CFO Order 4200.1; moreover, three of the accounts tested were
closed between 39 and 58 days after employee separation. One of the three
accounts had charges totaling approximately $3,800 that were made subsequent
to the employee leaving GSA. Upon further investigation, we were able to
determine that the post-separation charges were either the result of timing delays
or pre-established auto-billings set up on the employee’s account. We obtained
supporting documentation and/or reasonable explanations for the transactions
and concluded that the employees’ purchase cards were not used by another
GSA employee.

OIG Recommendation: We recommend that the OCFO revise its guidance on
the account closure process to establish a timeframe for the cancellation of
cardholder accounts.

Management Response: The OCFO agrees with the recommendation to
establish a timeframe for cancellation of cardholder accounts and will revise the
current policy. Although the CFO Order 4200.1, Guidance on Use of the Credit
Card for Purchases, requires a GSA Form 3661 for account cancellation, the
current practice has been to accept other forms of written documentation in lieu
of the form. The OCFO will modify its policy to reflect these practices.

In addition, the OCFO instituted a process to ensure that accounts are closed
with the issuing bank for cardholders who have separated from GSA. In this
process, a monthly file of active cardholders from the issuing bank is matched
with a current GSA payroll file. Any cardholder account that does not tie to the
GSA payroll file is cancelled directly with the issuing bank by the OCFO. The
purchase card program operates on monthly cycles. Therefore, if an employee
separates from the agency at the beginning of a cycle, this process of report
generation, review, and account closure can take approximately 60 days.




                                       A-4
We do not concur with the final section, “Two of the six accounts had charges…”
Due to the nature of charge card business, purchases may be made during the
time that a purchase cardholder is a GSA employee; however, the merchant may
process those transactions and the issuing bank post those transactions after a
cardholder leaves the agency. The OIG found all of the post-separation charges
to be of this nature. Therefore, the OIG finding section beginning with “Two of
the six accounts …” to the end should be deleted as it is not a finding. It is also
not reflected in the recommendation.

Audit Finding 2: Reasonableness of Cardholder to Approving Official
Ratios

OIG Finding: The Agency does not have a policy to ensure that the span of
control (i.e., review responsibilities and ratio of cardholders to AOs) is
reasonable. While the Agency reported to OMB a cardholder to AO ratio of 2.9:1
for the program (in FY 2007), our review found several instances where that ratio
was exceeded, noting an inequitable delegation of review responsibilities for AOs
across the Agency.

OIG Recommendation: Revise the CFO Order 4200.1 to include guidance on
the span of control and oversight responsibilities delegated to AOs; specifically,
as it pertains to the ratio of cardholders to AOs, as required by OMB Circular
A-123, Appendix B.

Management Response: The OCFO concurs with the recommendation to
provide additional policy guidance on the span of control to include a reasonable
ratio of cardholders to an AO. In addition, reports will be periodically generated
to monitor this span of control. As required by OMB, GSA reported an actual
cardholder to AO ratio of 2.9:1 during FY 2007. This number was an average of
all cardholders to AOs and does not reflect a ratio established by GSA or OMB.

Audit Finding 3: Unallowable Use of the GSA Purchase Card for Fleet
Related Transactions

OIG Finding: We noted four instances where cardholders used their purchase
card to make fleet related purchases. Specifically, supporting documentation
provided for the purchases showed that approximately $3,000 was charged for
oil and/or maintenance related services for fleet purposes. Furthermore, two of
the four transactions in question did not have evidence of any written supervisory
approval of the purchase.

OIG Recommendation: Ensure that all guidelines are followed when using
government funds to purchase goods and services, avoiding contradiction with
the Agency’s guidance and other regulations. We further recommend that
management ensures that in cases of exceptions to the policy, that the




                                        A-5
necessary approvals needed to authorize the purchase are documented and
maintained in the cardholder account file (i.e., in an audit trail).

Management Response: The OCFO sends a monthly Questionable Charges
Report to HSSOs and RAs. One of the items captured on this report is fleet-
related purchases. According to OCFO policy, the AO is responsible for
investigating and resolving these purchases to determine whether appropriate
action was taken, i.e., investigating the circumstances of the purchases and
taking appropriate disciplinary action as necessary. Some cardholders have
purchase, fleet and/or travel cards and have mistakenly used the wrong card on
occasion. We recommend that the OIG follow-up with the appropriate purchase
card coordinator to verify that these transactions were reflected on the monthly
Questionable Charges report and whether officials took the appropriate action to
resolve the matter. In addition, the OCFO regularly tests samples of
questionable charges during A-123 reviews to determine whether management is
following up and resolving these charges as appropriate.

Audit Finding 4: Notification of Fraudulent Charges to the Office of
Inspector General

OIG Finding: Our sample for testing included three transactions, totaling
approximately $8,790, which were identified by the cardholders and reported to
Citibank and the Agency as fraudulent in nature. Specifically, the three
transactions were coded in the Citibank Reporting System with an account status
code of “stolen / unauthorized”. Upon further investigation, we learned that the
charges were reported by the cardholders to Citibank as a result of their cards(s)
being stolen, lost, and/or misused. The transactions varied in disposition, from
casino hotel charges, to airplane tickets, and food. We determined that these
fraudulent transactions were resolved, and related expenditures were recouped
by the Agency. However, we found no evidence that these three transactions
were properly communicated to the OIG, as required per CFO Order 4200.1.

OIG Recommendation: Ensure guidance pertaining to the proper notification of
all parties, in accordance with CFO Order 4200.1, of any unauthorized
purchases, negligence, or misuse of the purchase card is followed.

Management Response: The OCFO concurs with this finding. Although the
intent of the OCFO policy requires notification to the OIG upon cardholder
misuse, it is not explicitly stated. The OCFO will modify its policy to provide
clarification on when matters should be reported to the OIG.

The audit report states that cardholders reported transactions to Citibank and the
Agency that were fraudulent in nature. Those charges were reported to Citibank
as a result of their card(s) being stolen, lost, and/or misused. The report stated
that there was no evidence that those transactions were properly communicated
to the OIG. However, the intent of the policy is to notify the OIG upon fraud or



                                       A-6
misuse of the card by an authorized cardholder, not for each incidence of lost or
stolen cards, or disputed transactions. It is the cardholder’s responsibility to
immediately report lost or stolen cards directly to the bank in accordance with the
cardholder agreement. In addition, non-recognized charges are reported to the
bank through the dispute process. It is the bank’s responsibility to initiate an
investigation of those charges.

In addition, the OCFO sends OIG monthly reports of detailed transaction data for
each cardholder, monthly Questionable Charges reports, and provides them
access to Citibank’s electronic reporting system for review purposes.




                                       A-7
                                                                           


                                    APPENDIX B

                AUDIT OF GSA’S PURCHASE CARD PROGRAM
                    REPORT NUMBER: A080090/B/F/F09006


Report Distribution                                              Copies

Office of the Chief Financial Officer (B)                          3

Internal Control and Audit Division (BEI)                          1

Audit Planning, Policy and Operations Staff (JAO)                  1

Assistant Inspector General for Auditing (JA)                      1

Assistant Inspector General for Investigations (JI)                1

Inspector General (J)                                              1*

Deputy Inspector General (JD)                                      1*

Special Assistant for Communications and Congressional Affairs (JD) 1*

Executive Assistant for Management (JD)                            1*

* Audit report distributed electronically.




                                             B-1

                                                                           
